3
                     Closeout of M90110046

This case reached OIG on November ?n 1990.
                at the

A proposal reviewer, q
                                                      -
                                                      .
                                                      .
                                                It concerns
                          , who submitted a proposal to the
                      program (program officer:
                                        , stated that the list of
graduate students advised by the subject over the past five years
was inaccurate. Some had received their Ph.D. ' s over five years
ago, while the subject was not really an advisor for some
others.   This was considered to be a matter of keeping the
information straight in proposals, rather than a matter of
serious misconduct.
In response to an inquiry, the subject sent a letter to OIG and
to the program officer clarifying his relationship to each
graduate student.   He said that the list given in the proposal
was a little out of date, but that he had actually worked closely
with each graduate student listed. The proposal does not state
that the graduate students necessarily were the subject' s thesis
students.
OIG feels that no genuine issue of misconduct is involved in this
case. Since the record has been satisfactorily clarified and the
subject understands the need for accuracy in information
submitted in a proposal, the matter should be considered settled
and the case closed.
